<html>
<title> - AN EXAMINATION OF S. 1194, THE MENTALLY ILL OFFENDER TREATMENT AND CRIME REDUCTION ACT OF 2003</title>
<body><pre>[Senate Hearing 108-372]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-372

  AN EXAMINATION OF S. 1194, THE MENTALLY ILL OFFENDER TREATMENT AND 
                      CRIME REDUCTION ACT OF 2003

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2003

                               __________

                          Serial No. J-108-32

                               __________

         Printed for the use of the Committee on the Judiciary



91-830              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     1
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    23
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................   115
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................   119
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................   130

                               WITNESSES

Atkins, Rhonda, Sarasota, Florida................................    13
Campbell, Hon. John F., Member, Vermont State Senate, Quechee, 
  Vermont........................................................     9
Eslinger, Donald F., Sheriff, Seminole County, Sanford, Florida..     7
Honberg, Ron, Legal Director, National Alliance for the Mentally 
  Ill, on behalf of the Campaign for Mental Health Reform, 
  Arlington, Virginia............................................     5
Stratton, Hon. Evelyn Lundberg, Justice, Supreme Court of Ohio, 
  Columbus, Ohio.................................................    15
Wilkinson, Reginald A., Director, Ohio Department of 
  Rehabilitation and Correction, on behalf of the Association of 
  State Correctional Administrators, Columbus, Ohio..............    11

                         QUESTIONS AND ANSWERS

Responses of Reggie Wilkinson to questions submitted by Senator 
  Durbin.........................................................    29
Responses of Evelyn Stratton to questions submitted by Senator 
  Durbin.........................................................    39

                       SUBMISSIONS FOR THE RECORD

American Psychological Association, Judge Maurice H. Richardson 
  (Ret.), Director, Massachusetts Mental Health Diversion 
  Program, Law and Psychiatry Program, University of 
  Massachusetts Medical School, Worcester, Massachusetts, 
  statement......................................................    63
Art for a Child's Safe America Foundation, Columbus, Ohio........    69
Atkins, Rhonda, Sarasota, Florida, prepared statement............    76
Campbell, Hon. John F., Member, Vermont State Senate, Quechee, 
  Vermont, prepared statement....................................    80
Columbus Dispatch, Randy Ludlow, articles:
    Critical Care, August 24, 2003...............................    84
    Prison doctors aren't top shelf; some come with big problems, 
      August 24, 2003............................................    91
    Lives Lost and Damaged, August 25, 2003......................    94
    When co-pay plan started, clinic visits started falling, 
      August 25, 2003............................................   101
    Taft Focuses on Inmate Care; August 28, 2003.................   103
    Panel To Review Health Care for Inmates, September 5, 2003...   106
Eslinger, Donald F., Sheriff, Seminole County, Sanford, Florida, 
  prepared statement.............................................   108
Honberg, Ron, Legal Director, National Alliance for the Mentally 
  Ill, on behalf of the Campaign for Mental Health Reform, 
  Arlington, Virginia, prepared statement........................   121
Hogan, Michael F., Director, Ohio Department of Mental Health, 
  Chair, President's New Freedom Commission on Mental Health, 
  Columbus, Ohio, statement and attachment.......................   132
Stratton, Hon. Evelyn Lundberg, Justice, Supreme Court of Ohio, 
  Columbus, Ohio, prepared statement.............................   145
Wilkinson, Reginald A., Director, Ohio Department of 
  Rehabilitation and Correction, on behalf of the Association of 
  State Correctional Administrators, Columbus, Ohio, prepared 
  statement......................................................   153
Women, Girls & Criminal Justice, June/July 2002, article.........   163

 
  AN EXAMINATION OF S. 1194, THE MENTALLY ILL OFFENDER TREATMENT AND 
                      CRIME REDUCTION ACT OF 2003

                              ----------                              


                        WEDNESDAY, JULY 30, 2003

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:08 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Mike DeWine 
presiding.
    Present: Senators DeWine, Leahy, and Durbin.

 OPENING STATEMENT OF HON. MIKE DEWINE, A U.S. SENATORFROM THE 
                         STATE OF OHIO

    Senator DeWine. Welcome to the Judiciary Committee hearing 
on Senate bill 1194, the Mentally Ill Offender Treatment and 
Crime Reduction Act of 2003. Let me thank the Chairman of the 
Judiciary Committee, Senator Hatch, for scheduling this 
important hearing today, as well as cosponsoring this 
legislation.
    Let me also thank the Ranking Member of the Judiciary 
Committee, Senator Leahy, for all of his hard work and for his 
leadership in this area, and also for his cosponsorship of the 
bill and for his hard work in preparing for our hearing today. 
Let me also thank our original cosponsors, Senator Grassley, 
Senator Domenici, and Senator Cantwell, for their efforts and 
their hard work.
    Those who suffer from mental illness face great challenges 
in their lives, and when those with mental illness come into 
contact with our criminal justice system, the challenges become 
even greater. I learned this firsthand approximately 30 years 
ago when I was a county prosecuting attorney in Greene County, 
Ohio. I learned how important it is that our mental health 
community and our law enforcement community work together to 
deal with mentally ill offenders.
    This kind of coordination is vital because people afflicted 
with mental illness are incarcerated at significantly higher 
rates than the general population. Specifically, approximately 
5 percent of the American population has a mental illness, but 
about 16 percent of the State prison population in this country 
has such an illness. The Los Angeles County Jail, for example, 
at any one time typically has more mentally ill inmates than 
any hospital in the country.
    Unfortunately, however, the reality of our criminal justice 
system is that jails and prisons are not equipped to provide a 
therapeutic environment for the mentally ill. In fact, mentally 
ill inmates often become even sicker in jail. Once released 
from jail or prison, many mentally ill people end up on the 
streets. With limited resources and little or no ability to 
handle their illness alone, they often commit additional 
offenses, resulting in their re-arrest and re-incarceration. 
This revolving door is costly and is disruptive for all 
involved, worst of all for the person suffering from a mental 
illness and his or her family.
    Although these problems manifest themselves most clearly 
within the prison system, the problem is also rooted in the 
mental health system and its failure to provide sufficient 
community-based treatment solutions. Accordingly, the key to 
any solution of these problems will be collaboration--
collaboration between the mental health system and the criminal 
justice system.
    In fact, because many mentally ill offenders have a drug or 
alcohol problem, in addition to their mental illness, solving 
this problem also will require greater collaboration between 
the substance abuse treatment and mental health treatment 
communities. That, in a nutshell, is what our bill does.
    The entire goal of the mentally ill offender treatment bill 
is to foster exactly this type of collaboration at the Federal 
level, the State level, and most particularly at the local 
level. The bill provides funding for the criminal justice 
system, for the juvenile system, and for the mental health and 
substance abuse treatment systems all to work together at each 
level of government to establish a network of services for 
offenders with mental illness.
    The bill would promote public safety by helping decrease 
the number of repeat offenders, and also would promote public 
health by ensuring that those with a serious mental illness are 
treated as soon as possible and as efficiently and effectively 
as possible.
    The way this bill works is that it sets up a grant program, 
establishing a pool of money which would be used to fund State 
and local programs to address the problem of mentally ill 
offenders. Most importantly, to ensure that these programs are 
collaborative, the bill would require that two organizations, 
such as sheriff's office and a mental health care agency, would 
have to jointly submit a single grant application on behalf of 
their community. So the bill would require that you would have 
to have a mental health organization as well as a law 
enforcement organization both applying together for the grant.
    These funds could be used for a variety of purposes as long 
as the program would further the goal of collaboration to help 
the mentally ill. For example, grant funds may be used to 
establish courts with specialized dockets for offenders who 
have a serious mental illness or a co-occurring mental illness 
and drug or alcohol problem.
    Funds could be used also, for example, to enhance training 
of mental health and criminal justice system personnel so that 
they could better handle situations that might arise with a 
mentally ill offender. Funds also could be devoted to programs 
that would divert non-violent offenders into treatment instead 
of prison, or correctional facilities could use grant funds to 
promote the treatment of mentally ill inmates and ease their 
transition back into the community upon release from jail or 
prison.
    Now, some of this may sound a little bit familiar to some 
of you because this legislation does, in fact, build on 
legislation that I introduced two years ago with my friend and 
colleague from Ohio, Congressman Ted Strickland. That bill, 
which many of my colleagues on this Committee joined with me in 
working on, did, in fact, become law and it authorized the 
establishment of more mental health courts.
    I have long supported mental health courts, which enable 
the criminal justice system to provide an individualized 
treatment solution for a mentally ill offender, while also 
requiring accountability of the offender. The legislation we 
are discussing today builds on that law and would make possible 
the creation or expansion of mental health courts. It also 
would promote the funding of treatment services that support 
such courts.
    There are a number of other important provisions in our 
legislation and we will discuss them today, but the real 
essence of this bill is that it would provide the funding and 
the incentive for law enforcement and mental health providers 
to work together to provide real help to those who are 
suffering from mental illness. The bill would help advance the 
community interest in promoting public safety and the human 
interest that we all have in helping people suffering from 
mental illness.
    Now, let me turn to my friend and my colleague on this 
Committee, Senator Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you very much, Mr. Chairman, and 
before we even start I want to commend your longstanding and 
well-demonstrated support of this concept. Like me, you have 
had experience as a prosecutor. And, of course, you have seen 
it from State government as lieutenant governor, so you know 
how important it is. It is not something that we talk about out 
of the abstract.
    This is a good, bipartisan bill. There are far more 
examples than not of legislation in this Congress that are put 
together by members on both sides of the aisle, and not 
surprisingly they are the ones that have the best chance of 
being passed.
    It is a good bill. It is going to help State and local 
governments with a problem that sometimes is overlooked--the 
extent to which mentally ill individuals commit crimes and then 
they are sent out again without ever receiving appropriate 
attention from the mental health, law enforcement, or 
correction systems, and commit crimes again.
    I welcome all the witnesses today, and I hope none of you 
among the witnesses will feel at all slighted if I give a 
special welcome to my fellow Vermonter, Senator John Campbell, 
who is here. He is going to testify about how our State has 
worked on this.
    Senator Campbell is the majority leader of our Vermont 
Senate. He is a member of the Judiciary Committee. He is a 
former law enforcement officer. But even more importantly, of 
the things that we share--we are both Vermonters, both been in 
law enforcement--we both married nurses and that is the best 
part of our lives. In his work as a legislator, as a lawyer, 
and as a law enforcement officer, he has seen this issue from 
policy perspectives, but also right up close and personal, as 
so many of you have.
    Too often, people with mental illness rotate repeatedly; 
they go back and forth between the criminal justice system and 
the streets of our communities. They go back on the streets and 
they commit a number of crimes. Yet, we have fewer law 
enforcement officers available to deal with this. They are 
being occupied by very important things, very urgent things, 
but they get diverted many times by lesser offenders.
    Then these offenders find themselves in jails or elsewhere, 
where there is no attempt made to take care of the mental 
illness problems they have. So what we are trying to do is give 
the State and local governments a tool to break the cycle. If 
we do, it helps law enforcement, it helps corrections officers, 
it helps the safety of all of us, but it also helps those who 
are mentally ill. It really is a win-win-win-win.
    When I held a Judiciary hearing last June, we heard from 
the members of the criminal justice system. We heard from State 
mental health officials, law enforcement officers, corrections 
officials, and representatives of counties around our Nation, 
and they all agreed that people with untreated mental illness 
are more likely to commit crimes and that our State mental 
health systems, prisons and jails don't have the resources they 
need to treat the mentally ill and prevent recidivism.
    We know that more than 16 percent of adults in U.S. jails 
and prisons have a mental illness, that about 20 percent of the 
youth in our juvenile justice system have serious mental health 
problems, and that up to 40 percent of adults who suffer from a 
serious mental illness are going to come in contact with the 
American criminal justice system at some point in their lives. 
We know all these things, but we have done very little to help 
at the Federal level. This bill could change all that.
    It is not a one-size-fits-all approach. It gives grantees 
the ability to use the funds authorized under the bill for 
mental health courts or other court-based programs, for 
training mental health system personnel for mental health 
treatment. It makes a real difference in funding--$100 million 
authorized each year for the next two years. Actually spending 
this money could save a great deal of money in the long run.
    I am glad--and, Mr. Chairman, you have seen this from all 
the people you have talked with, as I have--that it brings the 
mental health experts together with law enforcement, something 
where they both see a chance to win. So I applaud you for 
holding the hearing, and I am hoping this is something that we 
can get out and get passed.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator DeWine. Senator Leahy, thank you very much.
    Let me introduce the panel very briefly.
    Mr. Ron Honberg is the National Director of Policy and 
Legal Affairs for NAMI, the National Alliance for the Mentally 
Ill. He has worked extensively to promote diversion programs 
and improve treatment for people with mental illness.
    Sheriff Donald Eslinger is the Sheriff of Seminole County, 
Florida. He has worked in the Seminole County Sheriff's Office 
for the past 25 years. For 12 of those years, he has served as 
the sheriff. Additionally, the sheriff has worked with 
Florida's Behavioral Health Services Integration Work Group.
    Senator John Campbell is the majority leader in the Vermont 
Legislature. In addition to his work in the Vermont 
Legislature, he is a former law enforcement officer and has 
been practicing law for the past 20 years.
    Dr. Reggie Wilkinson is the Director of the Ohio Department 
of Rehabilitation and Correction, and has been with the 
Department since 1973. He was first appointed Director in 1991 
by then-Governor George Voinovich. He was reappointed eight 
years later by current Government Robert Taft. The Department 
oversees more than 30 prisons and is responsible for 45,000 
inmates.
    Rhonda Atkins is from Sarasota, Florida. She has firsthand 
experience as a mother of a mentally ill child. Her daughter 
got involved in a criminal justice system that was inadequately 
prepared to offer her the services that she needed.
    Justice Evelyn Stratton, of the Ohio Supreme Court, chairs 
the Supreme Court Advisory Committee on the Mentally Ill in the 
Courts in Ohio. This committee has been instrumental in 
providing training for law enforcement officers to better 
handle mentally ill offenders in the justice system.
    Mr. Honberg, you will be the first witness. Let me say that 
we will set the clock at five minutes for each one of you. We 
have your written testimony, which we appreciate and will be 
made a part of the record. When you see the yellow light, that 
means you are down for a minute. We would like for you to 
conclude your comments then, and that will enable us to have 
some time, we hope, for some questions.
    You may begin.

STATEMENT OF RON HONBERG, LEGAL DIRECTOR, NATIONAL ALLIANCE FOR 
    THE MENTALLY ILL, ARLINGTON, VIRGINIA, ON BEHALF OF THE 
               CAMPAIGN FOR MENTAL HEALTH REFORM

    Mr. Honberg. Thank you. Senator DeWine, Senator Leahy, I am 
deeply honored to have this opportunity to testify at this very 
important hearing. My name is Ron Honberg and I am the Legal 
Director for NAMI, the National Alliance for the Mentally Ill. 
But I am also here testifying today on behalf of the Campaign 
for Mental Health Reform, which is a collaboration among 15 
leading national mental health organizations, including 
consumers, family members, providers, and other advocates.
    The recent report that was released by President Bush's new 
Freedom Commission on Mental Health emphasizes what certainly 
the two of you know so well that our Nation's jails and prisons 
have become de facto psychiatric treatment facilities. Having 
been in many of those facilities myself, I know that they are 
not treatment facilities at all, that they are environments 
that are not at all conducive to treating people who are 
experiencing severe psychiatric symptoms.
    Sheriffs and police officers throughout the country, as I 
am sure you will hear today, will tell you that they frequently 
respond to people who are experiencing psychiatric crises. In 
view of this, the impressive line-up at this hearing, present 
witness excluded, reflects the reality that the criminal 
justice community has become the strongest ally of the mental 
health field, and in some cases, frankly, the leaders behind 
efforts to promote better mental health treatment and programs 
to reduce unnecessary criminalization of people with mental 
illnesses.
    The landmark Criminal Justice/Mental Health Consensus 
Project, which was convened by the Council of State 
Governments, is an illustration of just how important these 
issues have become. While compassion for a particularly 
vulnerable segment of our society is certainly evident in these 
efforts, the significant involvement of the criminal justice 
community reflects something more--recognition that reducing 
involvement of people with mental illnesses with criminal 
justice systems benefits not only those individuals themselves, 
but the criminal justice systems and society as a whole.
    Most people with mental illnesses who come into contact 
with law enforcement or criminal justice are not violent 
criminals. Most would never have ended up in these systems at 
all if they had received appropriate treatment in the first 
place.
    Yet, mental illness is the leading cause of disability in 
the world, but fewer than half of all people with these 
illnesses have access to even minimally adequate treatment and 
services. I want to emphasize that with treatment, recovery is 
very, very possible, but without treatment, the consequences 
are frequently horrendous.
    It is frankly unfair and very poor public policy to saddle 
criminal justice systems with responsibility for responding to 
people with mental illnesses in crisis, but that is the reality 
in America today. As I said, police officers around the country 
spend many hours transporting people to hospitals, and sit for 
hours in emergency rooms, only to see the same people back out 
again on the streets in a matter of a few hours. The time these 
officers spend in doing so is time they are unable to spend 
fighting crime.
    In 2000, this Committee demonstrated its commitment by 
enacting America's Law Enforcement and Mental Health Project, 
as Senator DeWine said, a bill that authorized funding for 
mental health courts, and this bill indeed represents the next 
logical step forward.
    Senator DeWine and Senator Leahy, we applaud you for 
scheduling a hearing to tackle these troubling problems. 
Senator DeWine, we are deeply grateful for your introduction of 
the legislation and, Senator Leahy, for your cosponsorship, 
that provides an important approach to badly needed community 
reform.
    This legislation wisely recognizes that solutions will 
ultimately be found in communities, and what the Federal 
Government can do and what good legislation must do is provide 
support for a wide range of collaborative community programs 
that provide avenues for effective and appropriate treatment.
    I would like to use the remaining few minutes to make the 
following five points.
    First, it is critically important that collaboration occur 
among all elements of the criminal justice and mental health 
systems if efforts to reduce criminalization of people with 
mental illnesses are to succeed. And I might add that this 
collaboration is also necessary at the Federal level between 
the Department of Justice, the Department of Health and Human 
Services, and other key Federal agencies.
    Second, jail diversion and community reentry programs will 
succeed only when mental health services and supports are 
available to address the needs of individuals in these 
programs. A more thorough explanation of the types of services 
needed is contained in my written testimony.
    Third, the best form of jail diversion is that which occurs 
prior to arrest and incarceration. For example, different 
approaches to pre-booking diversion have emerged, such as the 
nationally-renowned Memphis, Tennessee, Police Crisis 
Intervention Team program, which has now been replicated, I am 
very pleased to say, in over 50 communities across the country.
    Fourth, a wide range of post-booking diversion strategies 
exist, tailored to local needs and systems. Most notable, of 
course, among these are mental health courts, which NAMI is 
very pleased to report have been now adopted in approximately 
70 communities across the country, many in Ohio, several in 
Vermont. But there are other successful models, as well.
    Finally, discharge planning and reentry services for 
individuals with mental illnesses reentering the community are 
critically important. Successful reintegration is frequently 
hampered by lack of services and the failure to restore 
benefits lost or suspended during incarceration. The Campaign 
applauds the sponsors of S. 1194 for recognizing this and 
ensuring that grant funds can be used to support vital 
community reentry services.
    Once again, I thank you and am very grateful that I have 
had this opportunity to testify. I look forward to any 
questions you might have.
    [The prepared statement of Mr. Honberg appears as a 
submission for the record.]
    Senator DeWine. Thank you very much.
    Sheriff?

  STATEMENT OF DONALD F. ESLINGER, SHERIFF, SEMINOLE, COUNTY, 
                   FLORIDA, SANFORD, FLORIDA

    Sheriff Eslinger. Thank you, Mr. Chairman. I, too, would 
like to congratulate you and commend you on your leadership 
concerning this very important piece of legislation.
    Senator Leahy, thank you very much for your leadership as 
well.
    I am the Sheriff of Seminole County, and based on my 
experience I can assure you that the provisions contained in 
this bill are clearly needed to stem the ever-growing tide of 
the mentally ill within the criminal justice system.
    Ironically, it was five years ago this month that Seminole 
County lost Deputy Sheriff Eugene Gregory in a tragic incident 
that is emblematic of the crisis of untreated mental illness. 
Deputy Gregory, responding to a disturbance call, ended up in a 
confrontation with Alan Singletary, a man whose schizophrenia 
went untreated for years, despite his family's efforts to get 
him to accept treatment. Alan killed Deputy Gregory, wounded 
two other deputies, and himself was killed in the ensuing 13-
hour standoff.
    It was that tragedy that made me recognize the inescapable 
conclusion that we have to shift the focus of intervention for 
people with untreated mental illness away from law enforcement 
and the criminal justice system back to professionals who are 
trained to provide care and treatment for individuals with 
severe mental illness.
    The Senate bill provides critically needed resources for 
alternatives to incarceration, including training of law 
enforcement officers and mental health providers, and fostering 
collaboration among community stakeholders.
    With these resources, we have a greater hope of 
accomplishing really three main goals: number one, preventing 
fatal encounters involving law enforcement officers and those 
who are suffering from mental illness, as well as preventing 
unnecessary injuries that often occur during these crisis 
situations; number two, responding to the intense fiscal 
pressures in our counties throughout America, as well as making 
better use of public safety resources by not just treating 
symptoms of the problem, but looking at the underlying 
causation and addressing it.
    The loss of Deputy Gregory and Alan Singletary were far 
from an isolated incident and is not unique to Florida. Just 
since that tragedy in July of 1998, at least 175 other people 
with mental illness and 28 law enforcement officers have been 
killed in altercations across this Nation, 6 in D.C. and 
Maryland alone. This month, five mentally ill people have been 
killed in encounters with law enforcement. We now know that 
mental illness is a factor in many police shootings. In fact, 
people with mental illnesses are four times more likely to be 
killed in these encounters than the general population.
    It is critical to train officers to deescalate crisis 
situations. Seminole County has fully implemented the Memphis 
Model for CIT, a proven approach that fosters partnerships 
between law enforcement and the community. CIT has been shown 
to reduce officer injury rates five-fold.
    Equally as important is to prevent these incidents from 
ever occurring, because even the best training is no substitute 
for having medical professionals handle medical crises. The 
most effective way to prevent these violent episodes and deadly 
encounters is to prevent them by providing earlier intervention 
and treatment. This is not only the safest approach, but it is 
the most cost-effective.
    Lack of treatment impacts county budgets significantly in 
costs of personnel, incarceration, treatment within the system, 
emergency care, and even lawsuits. I am aware of at least seven 
lawsuits stemming from police shootings filed or settled since 
April of this year, some in excess of $1 million.
    When there are no alternatives to incarceration, the 
mentally ill begin to swell inmate populations in local jails 
and prisons.
    Mr. Chairman, as you alluded to, we now have over 300,000 
incarcerated mentally ill in county and State prisons 
throughout this country, nearly six times the number in State 
psychiatric hospitals. These individuals are ill and most don't 
belong in jail.
    I will abridge my comments, Mr. Chairman, for the sake of 
moving on. I would be delighted to answer any questions, but I 
must say again, to reiterate what you had conveyed, fostering 
community collaboration is a vital component of this bill. The 
deaths of Deputy Gregory and Alan Singletary inspired our 
community to collaborate to prevent such tragedies and improve 
the lives of people with severe mental illness. It is my hope 
that Senate bill 1194 will be a part of Gene and Alan's legacy, 
making certain that people with mental illness get treatment 
before tragedy.
    Thank you, Mr. Chairman.
    [The prepared statement of Sheriff Eslinger appears as a 
submission for the record.]
    Senator DeWine. Sheriff, thank you very much.
    Senator Campbell.

   STATEMENT OF HON. JOHN F. CAMPBELL, MEMBER, VERMONT STATE 
                    SENATE, QUECHEE, VERMONT

    Mr. Campbell. Thank you, Mr. Chairman. Let's make sure we 
get this on.
    Senator DeWine. You have to have those really close, is 
what we have learned here.
    Mr. Campbell. My children will like that, also.
    Senator Leahy. What happened, John, is we had too many 
snippets on the evening news with open mikes, everything from 
planning golf games to sometimes a little bit stronger. So we 
are being a little more careful around here.
    Mr. Campbell. Well, Don and I were planning our golf game 
before, but we will hold off until after the hearing.
    Good afternoon, Mr. Chairman, Senator Leahy. My name is 
John Campbell. I am a member of the Vermont State Senate, where 
I serve as the majority leader, and also serve on the Judiciary 
and the Appropriations Committee.
    First, I would like to thank you for inviting me here today 
to speak in support of S. 1194, the Mentally Offender Treatment 
and Crime Reduction Act of 2003. As a former law enforcement 
officer and attorney for over 20 years and a current State 
legislator, I believe I have a unique perspective on the issues 
that we are discussing here today.
    During my time as a police officer, I frequently found 
myself called to scenes involving petty thefts, disturbances, 
and public intoxication. It was not uncommon to find the 
suspects of these crimes to be acting paranoid or behaving 
erratically.
    While I was quite able to handle the criminal aspect of the 
situation, I was not trained to deal with the complex 
underlying issues of mental illness and substance abuse. 
Although there were times that it was necessary to arrest and 
incarcerate certain individuals with mental illnesses in order 
to protect the public, others who had committed low-level 
crimes, non-violent, as a result of their mental illness should 
have been referred to a mental health agency. Unfortunately, 
such care was rarely available, which left us with no other 
option other than to transport them to the county jail, not a 
fine place for someone who is suffering from mental illness.
    Police officers today are better trained to recognize and 
deal with these situations. However, they still find the 
process of securing diagnosis and treatment extremely 
frustrating. They find that the treatment providers may refuse 
to accept an individual for several reasons--lack of health 
care coverage, acuity of the illness, denying responsibility 
for the treatment of that person's specific diagnosis.
    In cases where an individual is eligible for services, the 
officer may find themselves waiting hours before that person is 
admitted. In other cases, the person is admitted for treatment, 
but often discharged shortly thereafter, and sometimes is back 
on the street before the police officer even makes it back to 
finish his report.
    Requiring police officers to act as quasi-mental health 
care providers places an unreasonable burden on them, the 
department, and their communities. The time required to 
facilitate treatment for individuals keeps the officers from 
performing their normal patrol functions and forces departments 
to either hire additional personnel or expose the community to 
a lack of police coverage. This is especially troublesome in 
rural communities, such as Vermont, as reduced police presence 
there sometimes means the difference between having one officer 
and having none at all.
    While the initial responsibility for finding placement for 
these individuals often falls upon law enforcement, a burden 
felt by the communities, the ones who really suffer, the ones 
who truly suffer are those who are afflicted, and also their 
families. They simply have no place to go.
    This disjoined spectrum of responsibility is never more 
evident than when dealing with co-occurrence disorder. 
Individuals who suffer from co-occurrence find themselves the 
proverbial hot potato, tossed among the mental health agencies, 
substance abuse facilities, and the criminal justice system.
    These agencies and organizations have good intentions. All 
of them seek to break that cycle. However, unless there is a 
collaborative effort, it is inevitable that the individual will 
find themselves interacting with the criminal justice system.
    The systemic dysfunction is not isolated to any one area. 
From large urban areas to small communities such as my own in 
Quechee, Vermont, people are in dire need of integrated 
services. I often represent families in crisis, and in the 
majority of these cases you will find an underlying mental 
health problem.
    It is extremely frustrating to search for a solution for 
these families. Too often, we come up short as a result of 
fragmented and insufficient resources to deal with the issues. 
It is devastating to watch families implode over issues that, 
if treated, could be managed. Mothers and fathers have to stand 
by as their children self-medicate themselves with alcohol and 
drugs in order to escape the personal horrors of their mental 
illness.
    Passage of S. 1194 will promote the types of integrated 
treatment and collaborative efforts between the criminal 
justice system and the mental health organizations that could 
spare many of these families those agonies.
    As an elected official, I appreciate more than ever the 
fiscal implications of the existing problem. Having to provide 
mental health treatment in an incarcerated setting is neither 
cost-effective nor clinically sound. A community-based approach 
would provide more complex services at a far greater service to 
the taxpayers.
    Many States have implemented programs for just these 
reasons. Vermont is one of them. One of our more effective 
programs is taking place in two of our largest communities, 
Burlington and Brattleboro. It is called the Co-Occurring 
Disorders Treatment Project, which promotes public safety and 
health by offering comprehensive, integrated mental health and 
substance abuse services to those individuals with both 
psychiatric and substance abuse disorders and who have ongoing 
involvement in the criminal justice system.
    Quite simply, as everyone has said so far, we can't do this 
without you. There is no way that we are going to bring 
collaborative services to our communities without your help, 
and therefore I would ask that anything we can do to help you 
support and pass S. 1194.
    If there are any questions, I would be more than happy to 
answer them later.
    [The prepared statement of Mr. Campbell appears as a 
submission for the record.]
    Senator DeWine. Senator, thank you very much.
    Director Wilkinson.

 STATEMENT OF REGINALD A. WILKINSON, DIRECTOR, OHIO DEPARTMENT 
OF REHABILITATION AND CORRECTION, COLUMBUS, OHIO, ON BEHALF OF 
      THE ASSOCIATION OF STATE CORRECTIONAL ADMINISTRATORS

    Mr. Wilkinson. Good afternoon. Thank you, Senator DeWine, 
Chairman Hatch, and Ranking Member Leahy, for inviting me to 
testify regarding Senate bill 1194. My name is Reggie Wilkinson 
and I am the Director of the Ohio Department of Rehabilitation 
and Correction. ODRC comprises more than 30 prisons and on any 
given day our agency supervises 45,000 prisoners housed in our 
correctional institutions. Moreover, we supervise another 
30,000 persons on parole and probation.
    Today, I not only represent the great State of Ohio that is 
so ably represented by Senator DeWine, but also the Association 
of State Correctional Administrators. ASCA is the national 
organization that represents persons who serve in my position 
in each of the 50 States and several other jurisdictions in 
this country. I am the current president of ASCA.
    I would also like to provide testimony on behalf of the 
Council of State Governments. They recently undertook a major 
initiative dealing with the mentally ill offender. Their work 
culminated in the publishing of a landmark report entitled 
``Criminal Justice/Mental Health Consensus Project.'' This 
bipartisan initiative brought together 100 leading law 
enforcement and mental health officials in the United States.
    A brief history. In 1993, following a prison riot at the 
Southern Ohio Correctional Facility where one correctional 
officer and nine inmates were killed, a Federal lawsuit was 
filed in Ohio entitled Dunn v. Voinovich, challenging the 
constitutionality of Ohio's mental health delivery system in 
our prisons.
    We agreed, however, to a five-year consent decree in 1995 
and decided to concentrate on, with the oversight of the 
Federal court, improving our mental health services for the 
mentally ill prisoner. Throughout the life of this lawsuit--the 
case was terminated per the settlement in the year 2000--all 
parties, including the plaintiff's counsel, the court monitor, 
State's attorneys, correctional administrators, and health care 
administrators, agreed to manage points of contention 
privately.
    Consequently, I am extremely proud of the mental health 
delivery system that currently exists in the State of Ohio. I 
consider the current system to be a national benchmark as it 
relates to prison mental health care. However, I know that it 
is very difficult, with the budget constraints, that we 
continue along the current path that I am so proud of today.
    I think this legislation, Senate bill 1194, can be the 
single most important positive legislative development for 
correction and mental health workers to occur in Congress in 
recent memory. It is gratifying to see a group of leaders in 
the Senate rally as they have under Senator DeWine's and 
others' leadership around a bill that practitioners and 
policymakers alike will agree can save lives, increase public 
safety, and reduce State and local government spending.
    First, save lives. Our Nation's prisons, where more than 
1.3 million persons are incarcerated on any given day, and our 
jails, which book about 10 million people annually, house more 
people with mental illness than do our country's mental health 
institutions. In fact, I often claim that correctional 
administrators are de facto mental health directors. That is 
enormously frustrating for us in the corrections community. Our 
principal job is to incapacitate and rehabilitate persons who 
are dangerous to the community, not to hospitalize sick people.
    Although we believe criminals with a mental illness should 
be punished, we also know that a correctional environment is 
hardly conducive to recovery for a person with mental health 
problems, especially a seriously mentally ill person or a 
person with an Axis 1 diagnosis. Not surprisingly, inmates with 
untreated mental illness are at a high risk of committing 
suicide or being victimized by predatory inmates.
    Public safety. The growing involvement of persons with 
mental illness in the criminal justice system has enormous 
public safety implications. Many offenders with mental illness 
have committed a crime that makes their incarceration necessary 
and appropriate. Still, nearly all inmates with a mental 
illness will be released from prison at some point.
    Unless we provide these offenders with the services and 
treatment they need while they are incarcerated, we are 
virtually guaranteeing that they will commit new crimes when 
they return to the community. Nevertheless, few corrections 
systems are able to prepare inmates for adequate release 
following their incarceration. Not surprisingly, studies have 
shown that rates of recidivism for persons with a mental 
illness should concern all elected officials.
    Senate bill 1194 can promote effective reentry planning for 
persons with a mental illness through efforts such as 
encouraging mental health providers to come into correctional 
facilities and connect with the offender prior to release and 
ensuring inmates have an adequate supply of medication upon 
their release. Typically, two weeks of psychotropic medication 
is provided to offenders once they are released from our 
custody.
    Reduced spending. Nearly every State in the Nation now 
knows that it is extremely expensive to manage persons with a 
mental illness. We have found out in the corrections business 
that we are no longer recession-proof, that we have enormous 
responsibilities and great fiscal burdens. Speaking on behalf 
of persons in my capacity, we are hoping that Senate bill 1194 
will continue with its current path in due speed.
    [The prepared statement of Mr. Wilkinson appears as a 
submission for the record.]
    Senator DeWine. Thank you very much.
    Ms. Atkins.

         STATEMENT OF RHONDA ATKINS, SARASOTA, FLORIDA

    Ms. Atkins. Chairman DeWine, I am very grateful to be here 
today in support of Senate bill 1194, the Mentally Ill Offender 
Treatment and Crime Reduction Act of 2003.
    My name is Rhonda Atkins. I am the mother of a 25-year-old 
mentally ill daughter from Sarasota, Florida. My daughter would 
have been spared a great deal of torment, as well as our entire 
family, had these things been in place ten years ago.
    My daughter suffers from a severe mental illness, bipolar 
disorder, and for much of these last ten years she has cycled 
in and out of psychiatric hospitals--rather, ping-ponged from 
psychiatric hospitals to substance abuse treatment centers--
inconsistent treatment, and her condition has steadily grown 
worse over the years. She is presently in treatment, after 
struggling for literally most of these last ten years to have 
her in long-term treatment.
    I will never forget what it is like when she is not in 
treatment. When she is not on her proper medication, she 
becomes very symptomatic, with mania. Some of the symptoms of 
that would be extreme irrationality, hyper speech to the point 
where she can hardly be understood. She doesn't think the way 
that you or I do when she is suffering from one of these 
episodes.
    She can become paranoid, thinking that those of us who are 
trying to help her, who love her, who want to get assistance 
for her, are trying to make her think that she is crazy, that 
it is we who have the problem and she is fine. She becomes 
delusional, very poor judgment, very dangerous to herself.
    There have been many, many nights, countless nights when I 
have not known where my beautiful daughter was, sometimes for a 
night, sometimes for a week, up to three months at one time. 
Like many people with mental illness, she sometimes doesn't 
think that she is ill and doesn't want to take her medication. 
She had not been consistently in treatment long enough to 
really gain the insight to understand that she indeed is ill 
and it would behoove her to stay in treatment or stay on 
medication.
    Like so many other people with mental illness, she has 
tried to calm the chatter in her own mind with substance-
abusing, which only makes her symptoms worse and the situation 
worse. She has often been uncontrollable and we have many times 
been afraid of what she would do to herself. She has indeed 
tried to harm herself on numerous occasions by wrist-cutting, 
overdosing, and things like that.
    When someone gets that sick and when the mental health 
system doesn't respond, usually the first line of recourse is 
the police. There have been numerous times when we have had to 
have police officers come to our home. Some have been educated 
enough to know how to deescalate a situation.
    There were others. I will never forget the one who very 
roughly handled her and said that if you were my daughter, I 
would knock you across the room. As you can imagine, that can 
throw fire upon a very tense situation already and cause 
problems that would not have been necessary, They might have 
deescalated a situation and gotten her into a safe situation 
had they been better trained to deal with a mentally ill 
person.
    The first time my daughter was arrested was for a 
trespassing charge. Each time she brushed with the law, we 
would hope that then would be the moment that we would get some 
assistance that we needed to get her into treatment that we 
knew she needed.
    Sometimes, when we would get into a situation, there were 
no services for her to be diverted to, or if there were 
services, there were waiting lists for those services. Waiting 
lists are just--when you need the treatment, you need it now. 
Six months from now doesn't serve someone who desperately needs 
to be in safe care in the moment.
    She has been arrested on a drug charge, which isn't 
surprising because when she is self-medicating, it will just 
often lead to that. There was one occasion when she was 
arrested on a drug charge and actually went through a drug 
court, but even then there was no real understanding or 
integration of services for substance abuse and mentally ill 
offenders.
    So rather than having an integrated approach to working 
with my daughter, she was just in the drug treatment program. 
Actually, a social worker in the program had discouraged her 
from taking her medication, which was lithium, which resulted 
in her deescalating, becoming manic again, and an a series of 
hospitalizations occurred after that.
    I believe in a 3-year period, there were, I think, 20, 21 
hospitalizations, which is very costly to the State. My 
statements to those in charge were it would be so much less 
expensive if you treated this on the front end rather than the 
repeated hospitalizations, the jail, all of those occurrences.
    The very tragic thing about so much of this is that my 
daughter is intelligent. She is a beautiful young woman, and 
while many of her friends were starting careers, getting 
married, having babies, my daughter spent years drifting 
through the streets, in and out of the jail system and 
emergency rooms, living among drug dealers.
    Within the last three years, she was sleeping in cat feces. 
She weighed 81 pounds at one point. Her body was covered with 
sores, and still we couldn't get her in long-term care. This 
bill could have saved years of my daughter's life. It could 
have saved us a great deal of heartache and grief early on, 
because this is an illness that doesn't affect just the person 
who has the illness, but it affects the entire family.
    The reality under current law is that law enforcement 
officers often are the ones who are the first line of response 
for people with mental illness. I am deeply in support of this 
bill to encourage what is needed on every level of working with 
those with mental illness in all levels of the system. Nothing 
can be gained by putting a person on a waiting list.
    My daughter has a brain disease, and these people need 
help; they simply need help. I felt personally compelled to 
come here today to plead with you to pass this bill. There are 
many people suffering who will continue to suffer without its 
passage. I am here to speak on behalf of all of us, all the 
families across the State of Florida, where I am from, and 
across the Nation who suffer from this illness. Please pass 
this bill so that another mother won't have to watch her 
daughter or her child deteriorate the way that my daughter has. 
Thank you.
    [The prepared statement of Ms. Atkins appears as a 
submission for the record.]
    Senator DeWine. Thank you very much.
    Justice Stratton.

 STATEMENT OF HON. EVELYN LUNDBERG STRATTON, JUSTICE, SUPREME 
                 COURT OF OHIO, COLUMBUS, OHIO

    Justice Stratton. Thank you very much, Senator Leahy and 
Senator DeWine, for allowing me the privilege of coming and 
sharing with you.
    You have heard much today about the problems that have 
brought us to this bill. I hope to share with you a little 
different focus on why this bill can be successful and why this 
bill can make a difference.
    My own story that brought me here is that about eight years 
ago I received a call from the governor's office appointing me 
to the Ohio Supreme Court. As you can imagine, it was one of 
the most exciting moments of my life. That same week, my 12-
year-old son ended up in a mental hospital seriously depressed 
and suicidal, and I went from the biggest highs during the day 
to the biggest lows at night, holding his hand, wondering if he 
was going to live.
    Then I went to court and sat on the bench and looked at the 
defendants in front of me who had absolutely no mental health 
care. If they were alcoholic and drug-addicted but had a mental 
health problem, Drug and Alcohol wouldn't take them. If they 
were mentally ill but had a felony, the mental health system 
wouldn't take them. So I put them in jail, often more for their 
protection than anything else.
    I felt a compelling need to do something. So two years ago 
I went to the chief and asked if I could establish a task 
force. He said we have no money. I said I will do it on my own. 
I called together some experts in the field and said I don't 
know anything about this, but I want to make a difference, help 
me.
    We got people from Mental Health, from Drug and Alcohol, 
from Sheriff's, from Probation, from NAMI, from the Ohio 
Advocates for the Mentally Ill. We put together a statewide 
task force and we started to try to find solutions. We have met 
every month for two years now, and every meeting our goal is to 
come forward with something positive, not a white paper, not a 
study, but something to move forward to make a difference in 
this State.
    We have now over 20 counties that have either a mental 
health court or some program specifically aimed at the mentally 
ill in the jails. Every major city in Ohio now has a CIT 
program. We have over 150 law enforcement officers that came to 
the last NAMI convention, something totally unprecedented. We 
are even now going to the campus police and offering training 
for campus police.
    Our goal is to get every single county to put together a 
collaborative task force. I have a waiting list a mile long of 
counties that want me to come, but I still have no staff, no 
resources. I make all my site visits myself. My law clerks type 
all my letters. We are doing it on our own, but we are still 
making a difference because collaboration is what works.
    I wish to give you an example of one county where it 
worked. Some people came to me from Franklin County and said, 
we have a serious problem. We have all these mentally ill. We 
know you are doing something. Can you come and help us?
    One of the advantages of my job is judges tend to return my 
phone calls. So I called some judges, I called some local 
people. We had ten people that met over a year-and-a-half ago, 
tried to put a little group together, and discovered the 
Department of Mental Health had funded a grant program for 
Franklin County, for the jails. The judges had never heard of 
it. We had 500 beds funded by the Community Shelter Board for 
the Mentally Ill and Homeless. The judges had never heard of 
it. We had a program that trained the mentally ill to work. The 
judges had never heard of it.
    That committee now has 55 people on it. It has started a 
mental health program in the Franklin County muni court and a 
drug court in the common pleas court. It has received two 
grants. One is from your mental health bill that you passed 
before. They are starting two CIT programs in the city of 
Columbus, and that program not only deals with the mentally ill 
in the jails, but they have started to find so many other ways 
to collaborate and work together outside of the jail system and 
not duplicate and waste resources. So it has been a tremendous 
success just in one county alone.
    A judge from Seneca County started this with the Juvenile 
Court, trying to deal with the juveniles in his court. He got 
together the schools, mental health, and drug and alcohol 
folks, and got them to work on the problem in their county. 
When he first met with them, they sat on opposite sides of the 
room, wouldn't even talk to each other, Drug and Alcohol one 
side, Mental Health on the other. By the fourth meeting, they 
were intermingling.
    They are currently now having an intervention program that 
tries to identify kids before they even are declared a criminal 
defendant, before they are even arrested, to intervene and work 
with them. This program can further that type of collaboration. 
It can provide that key seed money.
    I have a staff attorney and she has a sister named Sheree. 
Sheree had a drug and alcohol problem, a mental health problem, 
and had been arrested several times. Last week, Sheree died of 
a drug overdose. To others, she was a statistic; she was a 
mentally ill, drug-addicted criminal defendant. But to us, she 
was a sister, a mother, a daughter, a wife. She left four 
children. She was 46. There was no mental health program in her 
community.
    We were too late to help Sheree and we may be too late to 
help others, but we can really make a difference with this 
bill, with the catalyst this funding can provide, to get that 
collaboration going that can make such a difference.
    Thank you.
    [The prepared statement of Justice Stratton appears as a 
submission for the record.]
    Senator DeWine. Well, I want to thank all of our witnesses 
for some very compelling testimony.
    Let me turn now to Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I think this has 
been a very good hearing. You know, there are a million things 
going on right now on the Hill. The Senate is in session and we 
are having votes and doing other things. That is why there are 
so few here. There are, however, a number of staff members of 
various Senators, key Senators on this on both sides of the 
aisle, and I have a feeling that a synopsis of all your 
testimony, the six of you, is going to be in the must-reading 
book for a lot of Senators tonight.
    Let me ask Senator Campbell this question, and I ask this 
not to be parochial, but I think probably the same question can 
be asked in any small State or any basically rural areas.
    Can you give me examples of what Federal funding provided 
under the Mentally Ill Offenders Treatment and Crime Reduction 
Act that we are talking about--what funding under that would 
allow a small State like Vermont to do that it wouldn't 
otherwise be able to do?
    Mr. Campbell. Senator, I think especially small States, but 
even some of the ones that maybe are not as far advanced in 
their State programs regarding mental illness--we are trying to 
start with the mental health court. We now have a pilot program 
for drug courts, and in coming up with the ideas for these 
programs we are following the lead of a lot of other States.
    It is wonderful to start the programs, but unless we have 
the resources to actually treat the folks that are coming 
through the programs, we are not going to be successful here. 
Then we are just going to be again back here in a few years 
talking about other programs and trying to get other grants.
    I believe that with the Federal funds that this bill would 
suggest, we would be able to make sure that the drug courts and 
the mental health courts not only are implemented, but they are 
sustained. That is really the key here, is the sustainability 
of the programs. In addition to that, we need to make sure that 
we have the resources available to have the collaborative 
effect that you are seeking under this bill.
    So with that, with the funds that are provided here, I 
think we will be able to make a difference. Without them, I 
don't see us fiscally being able to handle it in the State 
budgets.
    Senator Leahy. Are there other things we see in a rural 
area? We have very small police departments. I suspect rural 
Ohio and rural Illinois, or any other State represented here 
also have very small police departments. Are these among the 
biggest problems?
    We have heard Ms. Atkins talk about a police officer 
reacting to her daughter. We have heard the sheriff speak and 
others speak about how you react when you go there. Is this an 
insurmountable problem?
    Mr. Campbell. I don't think it is, but I tell you the 
training of police officers is so important. I can understand 
Ms. Atkins's dismay over something like that, and as a former 
law enforcement officer, I cringed when I heard that story.
    Especially in rural areas like we have, as you know, the 
State police do a wonderful job in Vermont. However, they are 
spread very thin. We are right now down 40 to 45 officers. 
Sometimes, in the rural areas, the only people we have actually 
patrolling are the sheriff's department, which only has about 
two or three people, and most of those are part-time folks, or 
constables. The sheriff's department in Vermont--a lot of the 
sheriffs, and also the constables, are not trained in these 
areas specifically. So we have that problem to deal with.
    In addition to that, we have an issue that when you are in 
such a rural area, everything is so spread out that it is very 
difficult to get the services and use the urban models that 
seem to be effective here in those rural areas because of the 
fact that there is not enough training.
    So this bill, I believe, would effectively enable the 
mental health communities, the corrections and the substance 
abuse communities, to train the folks within these smaller 
communities, train the police officers, and train the 
constables to make sure that they are available to help in 
crisis situations and to continue with the wrap-around 
services, and also to make sure that it is not just a one-time 
shot, that they follow them all the way through until there is 
some type of recovery.
    Senator Leahy. You have the obvious problem we have with 
juveniles; they get out and nobody does follow-up. I know it is 
one of the things that both Senator DeWine and I have talked 
about, and I would hope that this would allow us to do 
something in that kind of a follow-up.
    Mr. Campbell. If I may read, this is from the Juvenile 
Justice Commission report of February 2003. I couldn't sum it 
up better, but this kind of lets us know about how our juvenile 
justice is in Vermont.
    ``Vermont's juvenile and youth justice response represents 
a fragmented array of programs and interventions. There is no 
clearly defined, consistent, or coordinated statewide response 
for juveniles and young offenders, nor are efforts woven into a 
large continuum of care for children and families. The State 
Agency of Health Services, working in partnership with the 
judiciary, communities, and families, need to bring these 
efforts together and create an integrated and coordinated 
system of care.''
    That sums it up right there, and we can have wonderful 
programs, but unless it is a collaborative and integrated 
affair, then we are not going to be successful.
    Senator Leahy. Well, you know, I couldn't agree with you 
more from my own experience, and certainly from the things that 
you have done and others have done in Vermont on this, but also 
from some of the other testimony Senator DeWine and I have 
heard.
    I would like to ask Dr. Wilkinson, what about law 
enforcement and corrections officers and mental health 
problems? I mean, you come from a much larger State than 
Senator Campbell and I do. Are they willing to work together? I 
am talking about law enforcement and corrections and mental 
health. Are there obstacles to coordinating? Are there things 
that could be done better? What is your general take on that?
    Mr. Wilkinson. I think the obstacle that exists more so 
than anything else has been the fact that people have not 
brought folks together that need to be in the same room, like 
Justice Stratton is currently doing. I think that is the first 
thing, and a lot of the problems that we can solve can be 
solved without a whole lot of money, which brings us to the 
second problem.
    Sometimes, money can't be avoided when we are talking about 
the need to get persons who appear to be acting out, and 
sometimes that behavior is criminal and sometimes it is deviant 
behavior as a result of a psychosis, for example. If there are 
not crisis centers for police to refer persons to, if there is 
no crisis intervention training and first responders can't 
adequately identify unusual behavior that might be a mental 
illness, then those persons are going to travel through the 
criminal justice system and cause taxpayers of all of our 
jurisdictions to spend multi-million dollars on something that 
could have been avoided at the very beginning of this process.
    Senator Leahy. To say nothing about the risk to others, 
themselves, and everybody within the system.
    Mr. Wilkinson. That is exactly right, and it is very 
expensive once they are in the system. The cost of housing a 
person who is mentally ill is extremely more costly than it is 
to house a person without a mental illness. You take the 
statistic that Senator DeWine mentioned. About 16 percent of 
all the persons in prison have a mental illness, and half of 
them have an Axis 1 serious mental illness. We are talking 
about an awful lot of money.
    But on your original question of do we work together, the 
answer is unequivocally, absolutely yes, and it is happening. 
But part of the problem that relates to that is that we don't 
tell those stories well enough. So I think part of the bill 
addresses that we not only need to give grant money to 
jurisdictions who apply for it; we need to dissect what is 
going on and share that with other jurisdictions across this 
country.
    Senator Leahy. Thank you. Well, I think what Judge Stratton 
has said, as you have mentioned, is important there.
    Mr. Chairman, I will put my other questions in the record.
    I just might say, Ms. Atkins, obviously all of us who are 
parents up here feel for what you are going through and hope 
that someday the best solution will come of that.
    Sheriff, there is no way to bring back Deputy Gregory, but 
all of us, again, on this Committee share your sadness at his 
death.
    Thank you all for taking the time. It is not easy to work 
out time for people to come to testify and I appreciate it.
    Ms. Atkins, do you want to say something?
    Ms. Atkins. I just wanted to say that it is wonderful to be 
at a table in a group with a cooperative spirit of everyone 
working together, because as my daughter shuffled through the 
system it has been so fragmented and to have everyone working 
together is just what I have prayed for for ten years.
    Senator Leahy. Thank you.
    Senator DeWine. Ms. Atkins, we just appreciate your 
testimony very much and the fact that you would come and share 
your story with us. I take it that your daughter is doing 
better today?
    Ms. Atkins. She is doing better today. She was in 
residential treatment for a year and she is in a therapeutic 
community presently, still in treatment, but a step down from 
where she has been. And I can honestly tell you that a year-
and-a-half ago, no one thought she would be alive today. 
Because she has been in treatment, we have hope that she is 
going to continue with her recovery. She is doing better 
presently than she has in the last ten years.
    Senator DeWine. Good. Well, we wish her well and we wish 
you well.
    Ms. Atkins. Thank you.
    Senator DeWine. Sheriff, you gave in your written testimony 
some very alarming statistics and pointed out something, I 
think, that we should know and maybe we don't think enough 
about, and that is how very dangerous it is for the police 
officer and how dangerous it is for the defendant, the 
criminal, when that criminal has a mental problem.
    You pointed out how many people just in the last month have 
been killed when that person had a mental problem. I mean, the 
sheriff or the deputy or the police officer goes in and tries 
to make an arrest. If that person whom he is arresting has a 
mental problem, that is a high-risk proposition for both of 
them.
    I guess it just points out maybe the need for this bill, 
but also points out the need for training. Ms. Atkins gave some 
testimony that would indicate sometimes maybe we don't have 
enough training for those officers. I got a letter after I 
introduced this bill, a copy of a letter that was sent to some 
of my colleagues from another State from, again, a mother who 
had some similar experiences that Ms. Atkins had relating about 
her child, her experiences with officers.
    I think we are doing a better job today than we were 
probably when I was a county prosecutor 30 years ago. But how 
well are we doing? How often do we have these crisis 
intervention teams? How many jurisdictions have crisis 
intervention teams? Could you just kind of reflect on that for 
us?
    Sheriff Eslinger. I do believe that law enforcement 
administrators throughout this country recognize that the 
mental health issue is not just a humanitarian issue or a 
public health issue, but it is also a public safety issue as 
well. I believe that a lot of agencies--and NAMI can back us--
have moved to CIT and much more can be done in the area of 
training.
    But what the bill also does, Mr. Chairman, is to provide 
earlier intervention. Law enforcement is called upon only 
during a crisis situation and we need to shift the focus of 
that intervention back to the mental health professionals.
    In the State of Florida, law enforcement conducts 34 
percent more Baker Acts, which is our involuntary examination, 
than DUI arrests. We average over 115 a day of Florida's Baker 
Act law. That is more than aggravated assault, that is more 
than burglary arrests that we make, and we need to shift the 
burden back.
    In fact, in half the counties in the State of Florida, 
nearly half of the counties, no mental health professional is 
involved in administering the Baker Act; it is law enforcement. 
What your bill will do is not only develop that collaboration, 
but it will also shift focus back to the mental health 
professional and provide greater assistance in community-based 
treatment.
    Senator Durbin. But it is a safety issue, and it is a 
safety issue for the officer, it is a safety issue for the 
person they are going to arrest, and maybe a safety issue for 
innocent bystanders as well.
    Sheriff Eslinger. As I mentioned earlier, Mr. Chairman, 
those who suffer from mental illness are four times more likely 
to be involved in a fatal police shooting.
    Senator DeWine. A staggering statistic.
    I am going to have to move on. Let me ask Mr. Honberg and 
anybody else who wants to comment on what our experience has 
been with the mental health courts. They are of fairly recent 
origin. They are certainly of recent origin on the Federal 
level, but before our bill was enacted there were some mental 
health courts at the State level that had already been started. 
Ours didn't start it. We were trying to add to that and put 
kind of the Federal seal of approval on them, and we were glad 
to be able to do that.
    What has been the experience at the local level?
    Mr. Honberg. Well, you know, they are a relatively new 
phenomenon.
    Senator DeWine. Yes, they are. That is why I asked.
    Mr. Honberg. Yes, despite the fact that there are over 70, 
so they have certainly devolved like wildfire around the 
country. So, you know, in terms of formal data, it is just 
starting to come out.
    I think based on what we have heard today, first of all, 
the first point I would make is that it is pretty obvious that 
any mechanism that can link people with needed treatment and 
with treatment for co-occurring, for not only their mental 
illness but substance abuse, is good.
    I would say that the early data that I have seen, at least, 
in places like Broward County is very favorable. For example, 
the court has been successful in linking people with treatment. 
The court has been successful in preventing recidivism. Very 
few people who have been under the jurisdiction of the court 
have re-offended.
    Another intangible that is difficult to measure is sort of 
the experience of the individuals who have come through the 
court, by and large people who have reported that the 
experiences have been very positive. They have not been 
coercive. They have felt that the judge and the court were very 
supportive.
    One other point I would make is that the judges--I have met 
a number of judges and the judges, as is true for Justice 
Stratton, have come real advocates and sort of use their bench 
as a bully pulpit to advocate for services that don't exist.
    Again, using Broward County as an example, where there is 
just a lack of community mental health services, lack of 
housing, the judge has been able to go before the legislature 
and actually lobby and get resources for housing and for 
treatment for mental illness and substance abuse.
    So, again, I would make the point that it is not the only 
approach, that there are a number of different approaches that 
need to be tried, and it is up to each community to decide to 
work best. Mental health courts certainly seem to me to be a 
very positive development and a very positive experience for 
those who have been through them.
    Senator DeWine. Justice Stratton?
    Justice Stratton. There are, in fact, not very many 
statistics because they are all relatively new, but the oldest 
one in Ohio is the Akron court, Judge Stormer. She had a drug 
court, started the mental health docket within her drug court, 
devoted two full days to just people who were mentally ill and 
also had a co-occurring disorder, helped put together the task 
force that started the CIT program. And not just because of the 
court, but because of the CIT diverting to the facility the 
community agreed on, her docket has dropped in half. She only 
has one day a week now for the people who are mentally ill.
    The anecdotal stories of the physical changes in 
appearance, people who started getting jobs who haven't worked 
for years, people going back to college--the stories these 
judges tell of the difference in the lives of people from the 
first day they appeared to when they graduated from the program 
are just heart-warming.
    Senator DeWine. The main emphasis, frankly, of this bill is 
the collaborative effort, and what we require is law 
enforcement has to be a part of it and the mental health 
community has to be a part of it.
    I am going to quote something that Justice Stratton wrote 
in her prepared testimony. She says, ``Taxpayer dollars are 
paying for police officers to repeatedly arrest, transport, and 
process mentally ill defendants, as well as for jail costs 
associated with treatment, crisis intervention, salaries of 
judges, and, of course, staff prosecutors and defense attorneys 
and many more hidden costs. The question becomes would we 
rather spend these dollars to keep mentally ill citizens 
homeless, revolving in and out of our criminal justice system, 
or would we rather spend these dollars to help them become 
stable, productive citizens?''
    I guess the question then is, you know, why aren't we doing 
this more? Senator Leahy asked Director Wilkinson that, and I 
would ask maybe some of the rest of you the question. Why 
haven't we in the past been doing more of these collaborative 
efforts and what is it that has stopped us from doing that? Is 
it money? Is it culture, a culture that means that law 
enforcement doesn't talk to treatment, treatment doesn't talk 
to substance abuse people? We have all kind of seen that over 
the years. I think we are doing better, but what is it?
    Mr. Wilkinson. My first take is the squeaky wheel gets the 
grease. We have not squeaked loud enough, like law enforcement 
and like some other venues have. We are here squeaking today, 
Senator, that there are other ways that we can skin the public 
safety cat, that we can divert funds to. But we can't forget 
about the public safety notion that we are currently doing. It 
has to be a gradual process.
    But probably more so than anything else, it is going to 
take leadership for people to have a bigger vision about 
tackling the mental health problem, the co-occurring disorder 
problem, the problem for people who have retardation. It is 
going to take people who can tie all of that together and see a 
bigger picture of answers rather than what we have seen before. 
Otherwise, it is going to be business as usual.
    Mr. Campbell. Senator, if I could add, in fact, I was quite 
shocked. When I learned first about the co-occurrence about 
three years ago when I had a constituent that was going through 
this with her daughter, similar very much to Ms. Atkins, I was 
shocked. I couldn't believe that they weren't dealing with both 
issues at once. Everyone was trying to point the finger at 
someone else.
    It was like turf wars almost and people were concerned 
about who was going to get what funding, and if we don't 
justify our position and our use here, then we are not going to 
get the funds. I find that to be abhorrent and I am glad that 
we are finally discussing it, and your bill here is going to 
force the States to make sure that they do work in a 
collaborative fashion.
    Senator DeWine. Justice Stratton?
    Justice Stratton. I think it has been a culture issue more 
than anything. I have found that groups just never talk to each 
other, like the experience I had with Franklin County. The 
trial courts are very isolated from the mental health 
community. Drug and Alcohol is very fixed with their funding.
    When I brought them to the table and said let's talk 
together and they started talking, barriers came down and 
people found ways to work together. I have had almost no 
resistance to people working together. The Department of 
Corrections sits on our board, Probation sits on our board, and 
Mental Health. All these people started talking. That is what 
it makes a difference.
    Senator DeWine. Everybody is well-intended, everybody wants 
to do the right thing. It is just that when you get up in the 
morning, that is not what you do. I mean, you just don't work 
with the other group. You just go about and do your own 
business. I mean, we have all been in courthouses. We know how 
things work. You know, the mental health folks are over here 
and substance abuse is over here, and we are doing our thing--
as a prosecutor, we did our thing in criminal justice and we 
just didn't necessarily work together.
    Justice Stratton. But where your bill can really make a 
difference is that sometimes funding is a galvanizing force; it 
is a catalyst. When communities say, okay, there is some 
funding available, but we have got to put a task force together 
and we have got to communicate and we have got to collaborate 
before we can get the funding, it is the catalyst that can get 
that to happen. So in that sense, it can really be important.
    Senator DeWine. That is the idea.
    Senator Durbin.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Mr. Chairman. Thank you for this 
hearing and this important legislation. I would be honored if 
you would add me as a cosponsor of this bill.
    Senator DeWine. We appreciate that. Thank you very much.
    Senator Durbin. Let me also thank the panel for your 
contributions. Though I wasn't here for your actual testimony, 
I have reviewed your statements and I appreciate what you have 
added to this record.
    I also would like to note for the record that our former 
colleague, Paul Simon, now at Southern Illinois University in 
Carbondale, last year held a meeting with former Surgeon 
General David Satcher on this issue and wrote us all a letter. 
Obviously, if you didn't get the letter, you were inspired by 
your own means, but I am glad to be able to tell Paul that--
    Senator DeWine. Paul has been a real leader in this area. 
Paul really gets it, gets the whole problem.
    Senator Durbin. If it is permitted, I would like to add to 
the record the findings of his conference last year, which is 
relevant.
    Senator DeWine. It will be made a part of the record.
    Senator Durbin. I would like to ask a few questions based 
on some of his findings which I think might be interesting if 
this panel could address.
    Senator Simon as a result of this asked, or at least 
requested that all those incarcerated be screened for mental 
illness, developmental disabilities, and learning disabilities 
as part of the initial processing as they enter the 
correctional system.
    Is that done now or is that something that may or may not 
emerge during the entire criminal process and may, in fact, 
emerge later in some instances where it finally is realized 
that we are dealing with a situation with mental illness?
    Justice Stratton. It is something that is not done. I don't 
know about the prison system, but at the local jail system it 
is frequently not done and it is part of why we have very poor 
statistics. One of the things we urge in our collaboration 
effort is an intake process that even asks some basic questions 
about what mental health illnesses or treatment they have had 
to even help us identify it.
    That is one of the things we hope to have funding for. That 
is one of the things that does require funding, is somebody who 
can be trained, ask the questions, and deal with the intake 
process, because we just don't even have any statistics because 
there is very little done. That is one of the things we are 
trying to put into the whole collaborative process.
    I know that the Department of Correction has done some 
things on that and I would like Reggie to speak to that.
    Senator Durbin. Before Dr. Wilkinson or others respond, I 
am tempted to divert my questioning into another line as to how 
a person can go through a criminal trial, when one of us 
learned in law school that one of the first questions you asked 
is whether they had the criminal intent or whether they were 
capable of forming that criminal intent. If that person is, in 
fact, seriously mentally ill and it is not even discovered at 
the point when they are incarcerated, it appears to me that the 
important question was not asked at an earlier stage that might 
have related to the guilt of the defendant.
    Justice Stratton. I can explain how that works.
    Senator Durbin. Maybe that is for another hearing. I don't 
know.
    Justice Stratton. I can explain briefly how that works. At 
the felony level, most of the time you do catch them when they 
are screened. It is at the municipal level where they don't. If 
you have a defendant and you know he has a mental problem, you 
can plead him out and get him three days and he is out of jail. 
Do you do that or do you let him go into the process, 30, 60, 
90 days before he even gets a hearing and a psychiatric 
evaluation, sits in jail now 30, 60, 90 days?
    A lot of the criminal defense attorneys that I talked to 
said I think it is my duty to get him out of jail as quickly as 
possible. The problem is it doesn't get at the underlying 
illness. So they often ignore the mental health problem, or 
they may be acting competent at that exact moment, but may not 
have been when they were arrested.
    There are a lot of factors, but the basic thing is a lot of 
them consider it better to move them through the system quickly 
than get them caught up in the mental health process.
    Senator Durbin. Dr. Wilkinson?
    Mr. Wilkinson. Senator, there is an awful lot of mental 
health assessment taking place. We think we do it well. 
However, that varies across the country in both prisons and 
jails regarding how well it is done. It is not cheap to do 
initial assessments of thousands of people who come in and out 
of your correctional facilities on an annual basis.
    So we in some cases depend an awful lot on the sentencing 
courts to give us that information in pre-sentence 
investigation reports so that we don't have to go back and do 
our own investigations regarding the pasts of these persons who 
are coming. Benchmark programs can help resolve that in a 
significant way.
    The other thing that we don't do well, including in our 
system, is detecting those persons who either have a mental 
illness and deteriorate while they are in prison or the people 
who develop a mental illness while they are incarcerated.
    Senator Durbin. So let me take it to the next step. Let's 
now talk about the population that has now been discovered to 
be suffering from some form of mental illness and they are 
incarcerated, and that, I think, has been suggested 16 percent 
serious mental illness. At least that is our benchmark figure 
for this discussion.
    What percentage of those receive medication and treatment 
during incarceration? Does anyone know?
    Mr. Wilkinson. Senator, of the 16 percent, we guesstimate 
about half of those have a serious mental illness, which means 
that they require a lot more supervision, they require 
medication, they require in some cases hospitalization. 
Hospitalization is sometimes short. What we do is have 
intermediary housing areas where we can take the persons who 
have a very visible mental illness.
    A lot of people in our correctional institutions with a 
mental illness, you don't know it if they are on their 
medication because they can behave normally with medication. 
But at least half of that 16 percent is on some sort of 
psychopharmacology.
    Mr. Honberg. Senator, if I just could quickly add, I know 
that in Ohio, in particular, Reggie Wilkinson has done some 
marvelous things in creating programs. But I have tell you, 
around the country, the way that people with mental illnesses 
who are incarcerated in jails and prisons are treated is 
frequently deplorable.
    I mean, people may have access to medication if they are 
overtly psychotic, at least for as long as they are psychotic. 
But I have seen it many times. People with mental illnesses 
tend to get sent to the worst units in the prison. There is 
excessive use of solitary confinement, there is excessive use 
of seclusion and restraints. It is a nightmare and it is 
oftentimes in circumstances that are only going to make the 
symptoms worse.
    That is why it is so important to have legislation like 
this and to have a movement like this that is designed to get 
at least low-level offenders out of these facilities and into 
community treatment.
    Senator Durbin. I want to get to two more questions and I 
don't know how much time I have remaining.
    Senator DeWine. You have plenty of time.
    Senator Durbin. Thank you.
    In the situation where you have someone who is mentally ill 
and incarcerated and has been diagnosed and is now being 
treated, who pays for the treatment?
    Mr. Wilkinson. The taxpayers of that State, sir.
    Senator Durbin. Is the Federal Government involved at all?
    Mr. Wilkinson. No.
    Senator Durbin. No Medicaid, no Medicare?
    Mr. Wilkinson. No. In fact, the law excludes persons who 
are in detention from receiving any Medicaid funds whatsoever.
    Senator Durbin. Justice Stratton?
    Justice Stratton. One of the problems we are struggling 
with in Ohio is if you are in jail, just even jail for a 
shorter-term sentence, after 30 days your Medicaid is cut off. 
That means now they have to go get a psychiatrist to do a new 
evaluation to give medications which may be different than what 
they are used to.
    If they get out of jail in 60 days, they may not even get 
the new medication by the time their other 30 days are up. The 
door is open, they walk out. Now, they have to re-apply for 
Medicaid. It may be months before they get it. They 
decompensate and they are back in prison before they ever get 
back on Medicaid. So it is a reentry problem that we are really 
having a struggle with as well.
    Senator Durbin. You have taken me, Justice, to the point I 
wanted to get to, and this goes back to Senator Simon's 
conference which he held. He recommended something which I hope 
Senator DeWine will consider as part of his legislation. He 
believes that there is a missing link in the current system 
which you have just noted--access to medication after mentally 
ill offenders are released.
    I would like to ask anyone on the panel to discuss the 
merits of providing Medicaid presumptive eligibility for 
mentally ill offenders upon release from incarceration. Under 
presumptive eligibility, mental health and health care 
providers would be able to grant mentally ill offenders 
immediate short-term Medicaid eligibility while a formal 
determination is being made. This presumptive eligibility would 
be intended to provide immediate access to mental health and 
health care services such as psychotherapy, medication, and 
rehab.
    I think you have just identified the problem. You have 
someone who, after a long period of time, is finally receiving 
some medication. Now, they are released, and that should be 
good news, but it may be the worst news because, being 
released, they are released without medication or help. Then 
they have to, if they can ever figure the process out, get into 
it, make application, and hope that they receive their 
medication in time before they do something that is harmful to 
themselves or others.
    Justice Stratton. One of the things we are working on 
through both the reentry court and through my committee is 
trying to set up a process that hooks up a defendant before his 
sentence ends with the Medicaid process, get the applications 
in, and get the approval before he steps out the door because 
most of them--you know, they may be given a two-week supply and 
they are out the door.
    They don't even know how to get to a Medicaid office. They 
don't even know what a Medicaid office is, as you said, to even 
go through the process. So there is a huge link in there that 
is fixable. It is very fixable. It is a matter of finding the 
process to make it work and starting it before they walk out 
that door.
    I am delighted to hear you say that because my committee 
has been struggling with this issue and I am so excited to hear 
some focus on it because it is a huge problem we have all 
across the country.
    Senator Durbin. I want to give my friend, Senator Simon, 
credit for it.
    I hope we can consider adding this as part of our 
conversation on this.
    If I could ask one last question, and that is it appears to 
me--I spoke to our Illinois Director of Corrections a couple of 
years ago about what he was challenged with and he was telling 
me about the over-crowding situation and the complexity of the 
inmates, the challenges that they brought, and so forth and so 
on, and he talked about this issue of mental illness and what 
to do with it. It struck me that our profile of the 
qualifications of a corrections officer doesn't reflect the 
reality of what the Department of Corrections faced today.
    When we talk about mental illness in the corrections 
system, for those who can address it, are there people who are 
being trained and recruited to deal with this new phenomenon so 
they can recognize the potential mental illness with an early 
screening or a developing situation and protect those inmates 
who may be potential suicide victims or victims themselves 
within the institution? Are we developing that expertise at a 
time when many States are saying we are out of money, we can 
barely house the people that are being sent to us, let alone 
provide any kind of special services?
    Dr. Wilkinson?
    Mr. Wilkinson. Senator, it is a great question. The issue 
relates to basic training for corrections officers. If the 
corrections system does not do training for first-line 
personnel such as a corrections officer and others regarding 
how to detect unusual behaviors--we are not wanting them to be 
clinicians. We just want them to be able to detect behavior 
that is unusual so that they can refer that to the proper staff 
person.
    A third-shift officer, for example, doesn't have on his or 
her shift a person that they can immediately get to, other than 
maybe a third-shift nurse. But that is woefully inadequate when 
we are talking about a person who has got a serious psychiatric 
problem and that problem is manifesting itself in a security 
concern.
    So if we aren't doing it--and some jurisdictions do it very 
adequately--if we aren't doing it, then the Federal courts are 
going to intervene because it is going to manifest itself in a 
lot of other problems that we don't want to deal with.
    Senator Durbin. I want to thank the panel and thank you, 
Mr. Chairman.
    Senator DeWine. Senator Durbin, thank you very much for 
very constructive comments.
    Let me thank our panel. This has been, I think, an 
excellent hearing. I appreciate the fact that you all are here.
    Ms. Atkins, thank you very much for coming here notice.
    Ms. Atkins. Thank you. My pleasure.
    Senator DeWine. We appreciate your making time to come here 
and we wish you and your daughter well.
    We have two statements that need to be entered into the 
record, which I am going to do. The statement of Chairman Hatch 
will be made a part of the record. Also, I would like to enter 
into this record of this hearing a letter from the Chairman of 
President Bush's New Freedom Commission on Mental Health, Dr. 
Mike Hogan. Attached to Dr. Hogan's letter are several pages 
from the commission's July 2003 report that are directly 
relevant to S. 1194.
    Again, let me thank all of our witnesses. I would also like 
on a personal note to thank Evelyn Fortier, who is a member of 
my staff, who I know has been in contact with all of you. 
Unfortunately for me, at least, and I think for Congress, 
Evelyn will be leaving us, I hope, on a temporary basis, but 
she will be leaving us at the end of the week. We would not be 
here today on this hearing, and I don't think we would be here 
with this bill without Evelyn's help.
    So, Evelyn, thank you very much for your hard work. We 
appreciate it very much.
    [Applause.]
    Senator DeWine. We hope Evelyn will be back with us in the 
not too distant future.
    Let me again thank all of you very much for your very, very 
good testimony. I think it has been an excellent panel, 
excellent testimony, and we hope to move this bill forward.
    Thank you very much.
    [Whereupon, at 3:37 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T1830.001

[GRAPHIC] [TIFF OMITTED] T1830.002

[GRAPHIC] [TIFF OMITTED] T1830.003

[GRAPHIC] [TIFF OMITTED] T1830.004

[GRAPHIC] [TIFF OMITTED] T1830.005

[GRAPHIC] [TIFF OMITTED] T1830.006

[GRAPHIC] [TIFF OMITTED] T1830.007

[GRAPHIC] [TIFF OMITTED] T1830.008

[GRAPHIC] [TIFF OMITTED] T1830.009

[GRAPHIC] [TIFF OMITTED] T1830.010

[GRAPHIC] [TIFF OMITTED] T1830.011

[GRAPHIC] [TIFF OMITTED] T1830.012

[GRAPHIC] [TIFF OMITTED] T1830.013

[GRAPHIC] [TIFF OMITTED] T1830.014

[GRAPHIC] [TIFF OMITTED] T1830.015

[GRAPHIC] [TIFF OMITTED] T1830.016

[GRAPHIC] [TIFF OMITTED] T1830.017

[GRAPHIC] [TIFF OMITTED] T1830.018

[GRAPHIC] [TIFF OMITTED] T1830.019

[GRAPHIC] [TIFF OMITTED] T1830.020

[GRAPHIC] [TIFF OMITTED] T1830.021

[GRAPHIC] [TIFF OMITTED] T1830.022

[GRAPHIC] [TIFF OMITTED] T1830.023

[GRAPHIC] [TIFF OMITTED] T1830.024

[GRAPHIC] [TIFF OMITTED] T1830.025

[GRAPHIC] [TIFF OMITTED] T1830.026

[GRAPHIC] [TIFF OMITTED] T1830.027

[GRAPHIC] [TIFF OMITTED] T1830.028

[GRAPHIC] [TIFF OMITTED] T1830.029

[GRAPHIC] [TIFF OMITTED] T1830.030

[GRAPHIC] [TIFF OMITTED] T1830.031

[GRAPHIC] [TIFF OMITTED] T1830.032

[GRAPHIC] [TIFF OMITTED] T1830.033

[GRAPHIC] [TIFF OMITTED] T1830.034

[GRAPHIC] [TIFF OMITTED] T1830.035

[GRAPHIC] [TIFF OMITTED] T1830.036

[GRAPHIC] [TIFF OMITTED] T1830.037

[GRAPHIC] [TIFF OMITTED] T1830.038

[GRAPHIC] [TIFF OMITTED] T1830.039

[GRAPHIC] [TIFF OMITTED] T1830.040

[GRAPHIC] [TIFF OMITTED] T1830.041

[GRAPHIC] [TIFF OMITTED] T1830.042

[GRAPHIC] [TIFF OMITTED] T1830.043

[GRAPHIC] [TIFF OMITTED] T1830.044

[GRAPHIC] [TIFF OMITTED] T1830.045

[GRAPHIC] [TIFF OMITTED] T1830.046

[GRAPHIC] [TIFF OMITTED] T1830.047

[GRAPHIC] [TIFF OMITTED] T1830.048

[GRAPHIC] [TIFF OMITTED] T1830.049

[GRAPHIC] [TIFF OMITTED] T1830.050

[GRAPHIC] [TIFF OMITTED] T1830.051

[GRAPHIC] [TIFF OMITTED] T1830.052

[GRAPHIC] [TIFF OMITTED] T1830.053

[GRAPHIC] [TIFF OMITTED] T1830.054

[GRAPHIC] [TIFF OMITTED] T1830.055

[GRAPHIC] [TIFF OMITTED] T1830.056

[GRAPHIC] [TIFF OMITTED] T1830.057

[GRAPHIC] [TIFF OMITTED] T1830.058

[GRAPHIC] [TIFF OMITTED] T1830.059

[GRAPHIC] [TIFF OMITTED] T1830.060

[GRAPHIC] [TIFF OMITTED] T1830.061

[GRAPHIC] [TIFF OMITTED] T1830.062

[GRAPHIC] [TIFF OMITTED] T1830.063

[GRAPHIC] [TIFF OMITTED] T1830.064

[GRAPHIC] [TIFF OMITTED] T1830.065

[GRAPHIC] [TIFF OMITTED] T1830.066

[GRAPHIC] [TIFF OMITTED] T1830.067

[GRAPHIC] [TIFF OMITTED] T1830.068

[GRAPHIC] [TIFF OMITTED] T1830.069

[GRAPHIC] [TIFF OMITTED] T1830.070

[GRAPHIC] [TIFF OMITTED] T1830.071

[GRAPHIC] [TIFF OMITTED] T1830.072

[GRAPHIC] [TIFF OMITTED] T1830.073

[GRAPHIC] [TIFF OMITTED] T1830.074

[GRAPHIC] [TIFF OMITTED] T1830.075

[GRAPHIC] [TIFF OMITTED] T1830.076

[GRAPHIC] [TIFF OMITTED] T1830.077

[GRAPHIC] [TIFF OMITTED] T1830.078

[GRAPHIC] [TIFF OMITTED] T1830.079

[GRAPHIC] [TIFF OMITTED] T1830.080

[GRAPHIC] [TIFF OMITTED] T1830.081

[GRAPHIC] [TIFF OMITTED] T1830.082

[GRAPHIC] [TIFF OMITTED] T1830.083

[GRAPHIC] [TIFF OMITTED] T1830.084

[GRAPHIC] [TIFF OMITTED] T1830.085

[GRAPHIC] [TIFF OMITTED] T1830.086

[GRAPHIC] [TIFF OMITTED] T1830.087

[GRAPHIC] [TIFF OMITTED] T1830.088

[GRAPHIC] [TIFF OMITTED] T1830.089

[GRAPHIC] [TIFF OMITTED] T1830.090

[GRAPHIC] [TIFF OMITTED] T1830.091

[GRAPHIC] [TIFF OMITTED] T1830.092

[GRAPHIC] [TIFF OMITTED] T1830.093

[GRAPHIC] [TIFF OMITTED] T1830.094

[GRAPHIC] [TIFF OMITTED] T1830.095

[GRAPHIC] [TIFF OMITTED] T1830.096

[GRAPHIC] [TIFF OMITTED] T1830.097

[GRAPHIC] [TIFF OMITTED] T1830.098

[GRAPHIC] [TIFF OMITTED] T1830.099

[GRAPHIC] [TIFF OMITTED] T1830.100

[GRAPHIC] [TIFF OMITTED] T1830.101

[GRAPHIC] [TIFF OMITTED] T1830.102

[GRAPHIC] [TIFF OMITTED] T1830.103

[GRAPHIC] [TIFF OMITTED] T1830.104

[GRAPHIC] [TIFF OMITTED] T1830.105

[GRAPHIC] [TIFF OMITTED] T1830.106

[GRAPHIC] [TIFF OMITTED] T1830.107

[GRAPHIC] [TIFF OMITTED] T1830.108

[GRAPHIC] [TIFF OMITTED] T1830.109

[GRAPHIC] [TIFF OMITTED] T1830.110

[GRAPHIC] [TIFF OMITTED] T1830.111

[GRAPHIC] [TIFF OMITTED] T1830.112

[GRAPHIC] [TIFF OMITTED] T1830.113

[GRAPHIC] [TIFF OMITTED] T1830.114

[GRAPHIC] [TIFF OMITTED] T1830.115

[GRAPHIC] [TIFF OMITTED] T1830.116

[GRAPHIC] [TIFF OMITTED] T1830.117

[GRAPHIC] [TIFF OMITTED] T1830.118

[GRAPHIC] [TIFF OMITTED] T1830.119

[GRAPHIC] [TIFF OMITTED] T1830.120

[GRAPHIC] [TIFF OMITTED] T1830.121

[GRAPHIC] [TIFF OMITTED] T1830.122

[GRAPHIC] [TIFF OMITTED] T1830.123

[GRAPHIC] [TIFF OMITTED] T1830.124

[GRAPHIC] [TIFF OMITTED] T1830.125

[GRAPHIC] [TIFF OMITTED] T1830.126

[GRAPHIC] [TIFF OMITTED] T1830.127

[GRAPHIC] [TIFF OMITTED] T1830.128

[GRAPHIC] [TIFF OMITTED] T1830.129

[GRAPHIC] [TIFF OMITTED] T1830.130

[GRAPHIC] [TIFF OMITTED] T1830.131

[GRAPHIC] [TIFF OMITTED] T1830.132

[GRAPHIC] [TIFF OMITTED] T1830.133

[GRAPHIC] [TIFF OMITTED] T1830.134

[GRAPHIC] [TIFF OMITTED] T1830.135

[GRAPHIC] [TIFF OMITTED] T1830.136

[GRAPHIC] [TIFF OMITTED] T1830.137

[GRAPHIC] [TIFF OMITTED] T1830.138

[GRAPHIC] [TIFF OMITTED] T1830.139

[GRAPHIC] [TIFF OMITTED] T1830.140

[GRAPHIC] [TIFF OMITTED] T1830.141

[GRAPHIC] [TIFF OMITTED] T1830.142

[GRAPHIC] [TIFF OMITTED] T1830.143

[GRAPHIC] [TIFF OMITTED] T1830.144


</pre></body></html>
